                Office of Inspector General




October 14, 2004

CHARLES K. LYNCH
MANAGER, BOSTON DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Boston District
         (Report Number DR-AR-05-002)

This is one of a series of audit reports on the Self-Service Vending Program in the
Northeast Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Boston District (Project Number 04YG017DR003).
The information in this district report will be included in a report to the Northeast Area
Vice President.

                                                    Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Northeast Area had 2,113 pieces of vending equipment that
generated approximately $30 million in revenue, of which the Boston District maintained
7 percent (151) of the total area machines that generated over 8 percent ($2.4 million)
of the total area vending revenue. During the first quarter of FY 2004, the Northeast
Area had 2,176 pieces1 of vending equipment that generated over $8.6 million in
revenue, of which the Boston District maintained 7 percent (1562) of the total area
machines that generated over 9 percent ($757,313) of the total area vending revenue.




1
    The Northeast Area had 63 additional vending machines during the first quarter of FY 2004.
2
    The Boston District had five additional vending machines during the first quarter of FY 2004.



       1735 N Lynn St.
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                               DR-AR-05-002
 Boston District



                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 151 vending machines operating in the
Boston District during FY 2003, 14 were classified as obsolete based on Postal Service
guidance, while the remaining 137 were classified as current equipment. For the
first quarter of FY 2004, 156 vending machines were operating in the Boston District, of
which 14 were classified as obsolete, and the remaining 142 were classified as current
equipment.

During our audit, we visited Postal Service facilities, interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FYs 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.3 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Boston District was conducted from March through
October 2004, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                         Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum

3
    Obsolete equipment was not included in the minimum revenue analysis.



                                                         2
Self-Service Vending Program –                                                                         DR-AR-05-002
 Boston District


revenue requirements and the districts may have missed revenue opportunities of
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations
and the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Boston District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Boston District officials
could increase revenue opportunities by redeploying equipment that does not meet
minimum revenue requirements. Further, Boston District officials could possibly reduce
maintenance and repair costs by discontinuing the use of obsolete equipment.
Additionally, while our physical observation of vending machines in the Boston District
indicated that overall the machines were easily accessible; the machines were not
always operable.

Redeployment of Vending Machines

Boston District officials could improve their process for redeploying vending equipment
that does not meet Postal Service’s minimum revenue requirements. Specifically,
during FY 2003, our review of the vending equipment revenue reports indicated that
86 percent (118 of 137) did not meet the minimum revenue requirements. Vending
equipment sales were approximately $1.5 million, which was significantly less than the
minimum revenue requirement of $3.5 million. As a result, the Boston District may have
missed revenue opportunities of approximately $585,000 to $1.9 million by not
redeploying this equipment.4

Additionally, in the first quarter of FY 2004, our review of the vending equipment
revenue reports determined that 115 (81 percent) of the 142 vending machines did not
meet the minimum revenue requirements. Vending equipment sales for the first quarter
of FY 2004 were $367,973, which was slightly less than the minimum revenue
requirement of $751,410. As a result, the Boston District may have missed revenue
opportunities of $383,437 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does

4
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $585,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.9 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                   DR-AR-05-002
 Boston District


not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
August 7, 2003), establishes the minimum revenue requirements for vending machines.
The district retail office is responsible for evaluating equipment revenue to find the right
location for the right machine. If self-service vending equipment is located in an area
where it is unable to generate enough revenue to meet the minimum requirement, the
equipment must be considered for redeployment. If revenue does not meet the
minimum requirement in three to six accounting periods, the district retail office should
place the equipment on a list for redeployment; notify any office where changes will be
made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials took action to redeploy five vending machines that did not meet
minimum revenue requirements in FY 2003. For the remaining 132 machines,
district officials did not initiate any redeployment action. Additionally, in the
first quarter of FY 2004, district officials did not initiate any redeployment actions for the
115 underperforming machines. District officials did not take any action to redeploy the
underperforming vending machines in FY 2003 and the first quarter of FY 2004 because
of limited resources and availability of revenue generating sites. By not taking action to
redeploy underperforming equipment, the district could miss revenue opportunities
during the remaining quarters of FY 2004.

District officials also expressed concern regarding the limited availability of high demand
vending machines, including Model PBSM 624 machines, and the lack of machines
capabilities to accept debit and credit cards. We plan to forward the district’s concerns
to Postal Service Headquarters.

We discussed the results with Boston District officials and they agreed that they could
improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans are
being made to reassess vending locations based on an analysis of vending operations
and receipt of 20 automated postal centers.5 In addition, Boston District officials are in
the process of establishing a customer service unit that will oversee the Self-Service
Vending Program to enhance the current procedures and identify redeployment
locations for underperforming machines.




5
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                       4
Self-Service Vending Program –                                                                   DR-AR-05-002
 Boston District


Recommendation

We recommend the Manager, Boston District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management stated that they will perform monthly evaluations of the revenue generated
by each machine and relocate the underperforming machines to new sites offering high
traffic and revenue potential. Management’s comments, in their entirety, are included in
the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
action taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003 and the first quarter of FY 2004, Boston District officials continued to use
14 obsolete machines and possibly incurred maintenance and repair expenses,
although Postal Service policy discontinued the maintenance and repair support for
the machines in 2000.6 Our review of vending equipment revenue reports showed that
all 14 machines did not meet minimum revenue requirements during FY 2003 and
13 (93 percent) of the 14 machines did not meet minimum revenue requirements during
the first quarter of FY 2004.

District officials stated that they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service since replacement
equipment was not available. District officials also stated that they maintained the
obsolete equipment because removing the equipment would cause damage to Postal
Service facilities that might be too costly to repair. As a result, the district possibly
incurred maintenance and repair expenses in FY 2003 and the first quarter of FY 2004
by continuing to operate and maintain the obsolete machines. We were unable to
determine the amount of repair and maintenance expenses associated with the
machines because the Postal Service does not capture the data for each machine.7


6
  This Maintenance Management Order (MMO) supplements MMO-018-96, June 21, 1996, Discontinuance of
Support for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models
of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
7
  We plan to address this issue in a capping report to Postal Service Headquarters officials.



                                                       5
Self-Service Vending Program –                                                 DR-AR-05-002
 Boston District


Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when the new automated postal centers are deployed to the district locations.

Recommendation

We recommend the Manager, Boston District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management stated that obsolete equipment identified by Postal Service Headquarters
will be removed from service. Management also stated they will utilize equipment
removed during the automated postal service center deployment in October to expedite
removal of obsolete machines.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
actions taken or planned should correct the issues identified in the finding.

Physical Observation of Vending Equipment

Our physical observation of vending machines in the Boston District indicated that
overall the machines were easily accessible, but not always operable. Specifically,
15 percent (3 of 20) of the machines judgmentally selected for review were not
operating properly. Two of the three machines did not give change in April 2004;
however, the inoperable machines were not listed in VESS in April 2004. The
remaining machine was not physically located at the site indicated in VESS April 2004



                                             6
Self-Service Vending Program –                                                   DR-AR-05-002
 Boston District


data. District officials indicated that the information for the machines was not listed in
VESS because employees inaccurately completed PS Form 8130, Vending Equipment
Sales and Service Daily Activity Log.8 By not properly completing PS Forms 8130,
Postal Service managers have no means of ensuring vending machines are operable or
in need of repair potentially resulting in a loss of revenue.

The VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending cost
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log. Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Recommendation

We recommend the Manager, Boston District, direct the Retail Manager to:

3. Require employees to accurately complete PS Forms 8130, Vending Equipment
   Sales and Service Daily Activity Log, for the three machines, detailing the inoperable
   status or correcting site locations, and consider retraining employees to accurately
   complete the forms.

Management’s Comments

Management stated that the Marketing Manager will continue to monitor compliance
with VESS updating. Management further stated that training on the proper use of the
VESS system will be conducted in October at each post office maintaining vending
machines. Management also stated that the responsibility for managing and
maintaining VESS for the majority of the district will continue to rest with the centralized
vending unit.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
action taken or planned should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




8
    We plan to conduct an audit on the accuracy of data in VESS.



                                                          7
Self-Service Vending Program –                                              DR-AR-05-002
 Boston District


We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    Patrick J. Ring
    Carolyn T. Derby
    Steven R. Phelps




                                           8
Self-Service Vending Program –                           DR-AR-05-002
 Boston District


                       APPENDIX. MANAGEMENT’S COMMENTS




                                    9
